OFF
  FICE OF IN
           NSPE
              ECTO
                 OR GE
                     ENER
                        RAL


AUDIT OF USAIID/PHHILIP
                      PPINNES’
GR
 ROWT TH WITH
            H EQQUITY Y IN
MIN
  NDANNAO
        O (GE
            EM-3 3) PR
                     ROGR  RAM
                             M

         ORT NO
AUDIT REPO     O. 5-492
                      2-12-00
                            02-P
DECE
   EMBERR 1, 2011




MANIILA, PH
          HILIPPIN
                 NES
Office of Inspector Geeneral


Decembe
      er 1, 2011

     ANDUM
MEMORA

TO:       	          USAID
                         D/Philippines
                                     s Director, Gloria D. Ste
                                                             eele

FROM: 	              Regio
                         onal Inspecto
                                     or General/M
                                                Manila, Willia
                                                             am S. Murph
                                                                       hy /s/

     CT: 	
SUBJEC               Audit of USAID/Philippines’ Growth with E quity in Min
                                                                          ndanao (GEM-3) Progra
                                                                                              am
                     (Repoort No. 5-492
                                      2-12-002-P)

This mem
       morandum transmits our final reporrt on the sub
                                                     bject audit. In finalizing the audit re
                                                                                           eport,
we conssidered yourr comments
                            s on the drraft report a nd have in  ncluded those commen      nts in
Appendix
       x II of this re
                     eport.

This repport containss four recommendation  ns to assistt the missio on in impro oving the ovverall
efficiency
         y and effectiveness of th
                                 he GEM-3 prrogram. On  n the basis of information
                                                                                 n provided by the
mission in its response to the draft report,, we determ mined that management decisions have
been reached on Recommen        ndations 1 and 2, wh     hile final action has been taken    n on
Recomm  mendations 3 and 4. Ple  ease provide
                                            e the Audit P erformancee and Compliance Divisiion of
USAID’s Office of the Chief Financial Officer witth evidence        e of final action to close
Recomm  mendations 1 and 2.

I want to thank you and your sta
                               aff for the co
                                            ooperation a nd courtesie
                                                                    es extended
                                                                              d to us durin
                                                                                          ng the
course of this audit.




U.S. Agency for International Development
                        th
PNB Financiaal Center, 8 Floorr
                       P   P




Roxas Blvd, 1308 Pasay City
Metro Manila
           a, Philippines
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 7 


     Regional Impact Projects Did Not Fully Meet Prescribed Criteria ........................................... 7 


     Barangay-Level Infrastructure Projects behind Schedule ..................................................... 10 


     Implementer Double Counted Assistance to Former Combatants ....................................... 13 


     Aquaculture Producers Hindered by Supply Problems ......................................................... 14 


Evaluation of Management Comments................................................................................... 17 


Appendix I—Scope and Methodology .................................................................................... 18 


Appendix II—Management Comments ................................................................................... 20 





Abbreviations

The following abbreviations appear in this report:

ARMM            Autonomous Region in Muslim Mindanao
BIP             Barangay-Level Infrastructure Project
GEM-3           Growth with Equity in Mindanao Program
MILF            Moro Islamic Liberation Front
MNLF            Moro National Liberation Front
RIP             Regional Impact Project
SAFE            Sustainable Aquaculture and Fisheries Effort
SUMMA
    ARY OF RES
             SULT
                TS 

The soutthern Philipp  pine island of Mindanaoo (shown beelow), includ
                                                                     ding the Suluu Archipelaggo, is
the coun  ntry’s secondd largest isla
                                    and and hom                      n people1 or approximattely a
                                              me to almosst 22 million
fifth of th
          he total Philippine population. Abouut 20 percen
                                                         nt of Mindannao’s inhabittants are Muuslim,
many of whom live in   n a region knnown as the
                                              e Autonomouus Region inn Muslim Min ndanao (AR RMM),
which wa  as created by the Philipppine Government in 1989.

Since thhe 1970s, Mindanao has seen extensive a rmed confllict between            n the Philipppine
Governmment and Mu uslim separatist groups that have be  een strugglin
                                                                     ng for indepeendence or some
form of autonomy. In 1996, a historic pea    ace agreem ent was sig  gned betwee  en the Philip
                                                                                              ppine
Governmment and the Moro Nattional Libera     ation Front (MNLF), th he largest Muslim sepa  aratist
group. Although figh
                   hting still occ
                                 casionally flares up betwween the arrmed govern  nment forcess and
small ban
        nds representing elements of some of the differrent groups,, the peace agreement―    ―now
15 yearss old―has for the mostt part held. Neverthele    ess, the yea ars of violen
                                                                                  nce and feaars of
violence have taken a toll, and have hindereed economic growth and opportunitie   es in Mindan
                                                                                             nao.

To help the Philippine Governm ment expand d economic opportunityy and preve  ent violence from
resurfacing, USAID has been im mplementingg major assiistance efforts, focusing
                                                                              g on the conflict-
affected areas of Mindanao, inncluding thee ARMM. S ince 1996,, the Growtth with Equity in
Mindanao (GEM) Program ha      as been USAID/Philip   ppines’ flagship activity in Minda   anao.
Conceiveed as a 5-yeear program, operating from 1996 t o 2001, the program―tthe largest in the
mission’s
        s portfolio―
                   ―has been continued an nd is currenntly in its 15
                                                                   5th year. (T
                                                                              The initial 5-year
program became kno  own as GEMM-1, and was s followed byy GEM-2, which ran from
                                                                              m 2002 to 20 007.)




1
    The Philippines
           l             gures 2011, published by th
                    in Fig                         he Republic o f the Philippines National Statistics Offfice




                                                                                                                 1
The current program (known as GEM-3) was initiated on January 1, 2008, and is scheduled to
continue through December 31, 2012. The program is implemented by the Louis Berger
Group Inc. under a cost-plus-fixed-fee contract valued at approximately $126 million2 and
managed by USAID/Philippines’ Office of Economic and Democratic Governance. GEM-3
expands on the work carried out under GEM-2 with the objectives of promoting peace in
Mindanao (primarily through the provision of needed infrastructure) and accelerating economic
growth. As of August 31, 2011, cumulative obligations under the program totaled approximately
$83.1 million and disbursements totaled $63.9 million.

Like its predecessor, GEM-3 is an umbrella program and involves a wide range of activities
carried out under the program’s four main components:

1.   Infrastructure Development
2.   Workforce Preparation
3.   Business Growth
4.   Governance Improvement

The Office of Inspector General (OIG) conducted this audit to determine whether the GEM-3
program was achieving its objectives of providing needed infrastructure and promoting
economic opportunity in the conflict-affected areas of Mindanao.

The audit covered activities to date (from inception through August 31, 2011) for the four
components, focusing on the largest component―Infrastructure Development―which was
approximately 67 percent of the program budget. Under this component, the program funded
the construction of a limited number of midscale infrastructure projects (rehabilitation of roads,
bridges, and airport runways) and hundreds of small-scale projects (boat landings, solar crop
dryers, footbridges, box culverts, and trading centers).

The audit determined that the GEM-3 program was generally achieving its objectives. Through
its diverse activities, the program has benefited tens of thousands of people living in the conflict-
affected areas of Mindanao. Among other things, the program’s efforts have resulted in
improved infrastructure at the barangay (village) level, better access to local markets, higher
incomes for farmers (including former MNLF combatants), increased domestic shipments and
international exports of targeted aqua- and agricultural commodities, the provision of computers
and Internet connectivity to a number of high schools, and improved English proficiency among
college students preparing to enter a competitive labor market.

GEM-3 was not expected to achieve anywhere near the level of outputs originally envisioned in
its contract for a number of its activities―partly because the program’s authorized funding level
was reduced from approximately $126 million to $98.9 million, which prompted the mission and
implementer to revise the program’s performance targets. Nevertheless, the program was
making progress toward achieving most of its revised targets, and some of the targets had
already been met at the time of the audit.

The following are some of the program’s notable achievements under its four components.



2
 At the time of the audit, the contractor and USAID were negotiating a contract modification reducing the
authorized funding level from $125,972,977 to $98,868,135.



                                                                                                       2
•	 Infras
        structure Developmen
                           nt

   −	 Regional Imp  pact Projeccts (RIPs). RIPs are mid   dscale infrasstructure pro
                                                                                   ojects with a cost
      off $50,000 annd higher. As of May 31   1, 2011, the program ha ad completed d 7 of the 12
                                                                                               2 RIP
      projects expeected under this activity y (revised ta
                                                         arget), with the remainin ng 5 projectts still
      under construction. Inc  cluded in the  e seven com mpleted RIP Ps were two  o that expa anded
      ru
       unways at thhe airports on the Sulu Archipelago islands of Sulu (shown below) and Tawi-
      Tawi. Becau  use of the immprovementts made und     der these prrojects, the runways at each
      lo
       ocation can now accommodate the principal aiircraft used by the majo        or Philippine
                                                                                               e and
      re
       egional carriers, a factorr that is expected to exppand trade, business, and tourism in the
      province. On  ne Philippine carrier recently anno  ounced planss to start da aily service on a
      new route be  etween Taw  wi-Tawi and the city off Zamboang     ga on Mindanao’s main     nland
      sttarting Octo
                   ober 14, 201 11, using an  n A319 airccraft (with a capacity off 156 passe  enger
       eats and mo
      se           ore than 1 to
                               on of cargo lo oad).




      The Jolo Airport runway on the island
                                          d of Sulu, exp
                                                       panded unde er GEM-3, noow
      ac
       ccommodate  es larger com
                               mmercial airc
                                           craft. (Photo
                                                       o furnished courtesy of GEM-3)

   −	 Barangay-Le   evel Infrastructure Pro ojects (BIPs  s). BIPs are small-sca  ale infrastruucture
      projects at thhe barangay (village) lev
                                            vel, generally costing beetween $5,0 000 and $50   0,000.
      Originally, it was anticipated that thhe program would comp    plete 1,000 BIPs by itss end
      date, but the reduced autthorized fund ding levels lowered this target to “att least” 760 BIPs.
      As of May 31, 2011, 742 BIPs had be   een authorizzed, of whichh 397 had be een completted.

      Table 1 prese
                  ents a break
                             kdown of the approved B IPs (by type
                                                                e) as of Mayy 31, 2011.


                                                                                                     3
        Table 1. Barangay-Level Infrastructure Projects (not audited)

                            Project Type                  Quantity
               Grain and seaweed solar dryers                134
               Road upgrading                                 60
               Boat landings                                  66
               Water systems                                  24
               Footbridges                                    80
               Box culverts                                  247
               Irrigation systems                             23
               Drainage systems                                7
               Trading centers                                92
               Other                                           9
                                                  Total      742

Although small in scale, BIPs have made a positive difference in the lives of many
villagers throughout the conflict-affected areas by improving the local infrastructure,
providing farmers with more efficient irrigation systems and the means to dry their grain
effectively, and increasing accessibility to markets. The following are examples of
project successes under this activity.

Malamote irrigation canal upgrading. This project, completed in 2009, upgraded a
1.16-kilometer concrete-lined irrigation canal to provide improved irrigation for local rice
farmers. Following construction, farmers stated that they were able to irrigate their fields
more efficiently, resulting in an increase in the number of harvests each year from two to
three and in higher yields (an average of 30 additional sacks of rice per hectare valued
at the local currency equivalent of about $664). With the increased income, farmers
have purchased additional farm equipment to expand their operations.

Datu Tumanggong road upgrading. This project upgraded a 1.5-kilometer dirt road
leading to a village. Before the project, the road was reportedly in such poor condition
that no vehicles could pass, forcing farmers to rely on horse or buffalo-drawn carts to
transport their produce to the local market 12 kilometers away. Thanks to the new road,
villagers report that vehicles can now access the area, which has resulted in (1) reduced
transportation costs for farmers (since trucks now come to pick up their harvests), (2)
increased farm production, (3) increased incomes, and (4) more parents able to afford to
send their children to high school.

Kamanga footbridge. This suspension footbridge (pictured on the next page) was built in
2010 over a river crossing in Sultan Kudurat Province for the benefit of residents of this
rural farming community. Previously, residents had to ford the river on their own, posing
a safety hazard, particularly for the children who had to cross the river to attend a nearby
high school. In addition to providing a safer means of crossing, the new footbridge
(which can also accommodate motorcycles) has resulted in reduced transport fees for
some farmers who rely on hired motorcycles as the primary means of transporting their
goods to a market in a nearby town. One farmer interviewed stated that his transport
costs have decreased by about 40 percent since the construction of the footbridge.




                                                                                          4
The Kamanga suspen     nsion footbriidge in Sulta
                                                an Kudurat PProvince, at le
                                                                          eft, gives loc
                                                                                       cal villagers,
        g schoolchild
including              dren, a safe and convenie ent means o f crossing a stream they  y previously had
to cross via a dirt traiil shown at right. (Photo
                                                os by OIG, Ju
                                                            uly 28, 2011)

•	 Work
      kforce Preparation

    −	 Job-Enabling g English Proficiency   y Project. This projectt was desig    gned to aug   gment
       English-languuage instruction programms at selecte ed colleges and universities in Mind  danao
       to
        o help their graduates compete successfully for employment in ind         dustries requ  uiring
       English-languuage proficieency. Startin
                                             ng with 10 c olleges and universitiess, this activityy has
       been significa
                    antly expand ded and noww works with  h 27 institutio
                                                                        ons and hass reported 23 3,198
       sttudents enro
                    olled in proje
                                 ect courses since its ince
                                                          eption.

    −	 Computer Literacy and  d Internet Connection   n. Under this activityy, GEM provides
       co
        omputers an
                  nd Internet connections to schools in target areas. As of May 31, 2011
                                                                                       1, the
       program repo
                  orted supporrting 253 sch
                                          hools, which received 1,188 computters.

•	 Business Grow  wth.    To promote bu    usiness gro owth, GEM established the Targ           geted
   Comm modity Expa
                  ansion Projeect. The objective of thiss activity is to triple inte
                                                                                   ernational exxports
   and domestic shhipments from Mindanao    o (volume a nd value) of targeted commoditiess, like
   fresh and processsed fruit an
                               nd vegetables, tuna, an  nd high-valu ue marine products succh as
   abalo
       one and groouper, throu ugh various production  n and supplly-chain inte    erventions. Key
   achie
       evements to date under this activity include the f ollowing:

    −	 In         nternationall Exports and Domesttic Shipments. Based
        ncreased In                                                  d on govern
                                                                               nment
        data for fiscal year 2010, the total va
                                              alue of intern
                                                           national expoorts and dommestic shipmments
        off targeted co
                      ommodities was $53 miillion, a $22 million incre  ease from thhe 2007 basseline
        fig
          gure (thoughh only 43 pe
                                 ercent of thee $51 millionn increase taargeted to be
                                                                                    e reached by the
        program’s en nd). Since th
                                 he start of the program in 2008, GE    EM has repo ortedly faciliitated
        exxports and domestic shipments of targeted        d fresh and  d processed d fruit prodducts,
        veegetables, and seafood commoditie   es with a tota
                                                           al value of ap
                                                                        pproximatelyy $57.7 million.




                                                                                                          5
   −	 Trade Fairs. GEM has assisted Mindanao producers in participating in 18 foreign and 6
      Manila-based international trade shows, resulting in $38.2 million in reported sales.

   −	 Conferences/Training.        GEM conducted 349 commodity-related conferences and
       training activities to enhance the production of 19,410 small-hold growers, including a
       number of former MNLF combatants, and help them diversify into raising other types of
       fruits, vegetables, and aquaculture products.

•	 Governance Improvement. GEM implemented the Congressional Internship Program for
   Young Mindanao Leaders to provide selected college graduates from underserved
   communities in the conflict-affected areas of Mindanao with a short-term internship at the
   Philippine House of Representatives in order to gain exposure to and hands-on experience
   in legislation and policy formulation. As of May 31, 2011, the fifth group of participants
   under GEM-3 had completed the activity, resulting in a cumulative total of 122 graduates.

However, the audit disclosed the following four findings:

•	 Regional Impact Projects did not fully meet prescribed criteria (page 7).

•	 Barangay-Level Infrastructure Projects behind schedule (page 10).

•	 Implementer double counted assistance to former combatants (page 13).

•	 Aquaculture producers hindered by supply problems (page 14).

The report recommends that USAID/Philippines:

1. 	Require the implementer to assess the condition of the Ladia-Raguisi-Pinaring Road,
    coordinate the appropriate repairs and maintenance needed, and explore options to protect
    the road from destructive usage (page 10).

2. 	Develop a plan of action outlining the measures it plans to take to ensure that quality
    standards are maintained on the program’s remaining Barangay-Level Infrastructure
    Projects (page 13).

3. 	 Require the implementer to make appropriate adjustments to its performance results data to
     ensure that the postharvest facilities provided to former combatants under the program are
     credited toward the target for this activity only, to avoid double counting (page 14).

4. 	Require the implementer to develop and implement a plan of action for the program’s
    Sustainable Aquaculture and Fisheries Effort activity to resolve the problem of fish
    hatcheries not being able to produce sufficient quantities of fingerlings to satisfy the demand
    generated by program-assisted aquaculture cooperatives (page 16).

A detailed discussion of the audit findings appears in the following section. The scope and
methodology are described in Appendix I. USAID/Philippines’ written comments on the draft are
included in Appendix II. Our evaluation of these management comments is included in the
report on page 17.




                                                                                                 6
AUDIT FINDINGS 

Regional Impact Projects Did Not
Fully Meet Prescribed Criteria
Originally, the implementer was expected to construct 15 to 20 RIPs by the end of the program.
This performance target was later reduced to 12 RIPs after the program’s authorized funding
level was reduced by 21 percent. In classifying an infrastructure project as a RIP, the GEM-3
contract specified several criteria:

•	 Dollar Threshold. RIPs involve midscale infrastructure projects with construction costs of
   $50,000 and higher, with most under $1 million, but some as high as $4 million.

•	 Number of Beneficiaries. Unlike BIPs, whose principal beneficiaries are the people living in
   the specific barangays (villages), RIPs are expected to benefit a larger geographic area and
   therefore have a “substantially larger number of beneficiaries” and are subject to a higher
   visibility criteria.

•	 Transformational Impact. The contract also specified that efforts be made to ensure that
   RIPs include projects that will have a “transformational” effect on the provinces in which they
   are located. Specifically, projects are expected to demonstrate a potential to “catalyze the
   expansion of existing business and industry or even make possible the emergence of new
   business and industry.”

The audit, however, determined that a number of the RIPs approved by the mission did not fully
meet the above criteria. Of the 12 RIPs constructed or in progress under GEM-3, the following
4 projects (33 percent) met the dollar threshold, but may not have satisfied the Transformational
Impact criterion:

•	 Bañas Bridge: Lantawan, Basilan (cost: $150,201). This box culvert bridge, similar to the
   ones built and classified as BIPs, was constructed on the island of Basilan in the Sulu
   Archipelago in May 2010. The structure (shown on the next page) is on a section of the
   island’s circumferential highway, but is situated on what is essentially a country road in a
   remote rural area where the volume of traffic appeared to be relatively light. The audit team
   observed an average of only 1.5 vehicles per minute passing over the bridge.

•	 Busay Bridge: Isabela City, Basilan (cost: $146,533). This box culvert bridge was also
   constructed on the island of Basilan. Like Bañas Bridge, it is located on the island’s
   circumferential highway, but on the outskirts of the provincial capital, where the volume of
   traffic is heavier. According to residents, the new bridge is an improvement over the prior
   bridge since it includes a shoulder, allowing pedestrian traffic and alleviating a potential
   safety hazard, especially for the children who regularly crossed the bridge to attend a
   nearby elementary school. However, it was unclear how the construction of this bridge met
   the “Transformational Impact” criterion and how it was expected to catalyze the expansion of
   local business since the project merely replaced an existing bridge―a bridge that even
   some GEM staff acknowledged was structurally sound and required only minor repairs.




                                                                                                7
       The Bañas Bridge, a box  x culvert brid
                                             dge, is situa
                                                         ated along a remote sec
                                                                               ction of a
        ural highway
       ru          y on the islan
                                nd of Basilan
                                            n. (Photo by OIG, July 166, 2011)

•	 Ngann Spillway Overflow Structure: Ngan, Com         mpostela Va    alley (cost: $66,300). This
   bridge involved an overflow w structure with culverrts located on a provin      ncial highwaay in
   Mindaanao’s Com mpostela Valley region. According to GEM sta      aff, this proje
                                                                                   ect was orig
                                                                                              ginally
   class
       sified as a BIP, but was later reclass
                                            sified as a R IP primarilyy because itss costs exce
                                                                                              eeded
   the $50,000 threshold. The prime contrract, howeve    er, states th
                                                                     hat BIPs will “generally” have
   consttruction costs of betweeen $5,000 and $50,000    0, indicatingg that the $550,000 thresshold
   should not be co onsidered a hard-and-fast rule and that a BIP may on occa      asion exceeed the
   $50,0
       000 threshold.

•	 Ladia a-Raguisi-PPinaring Road Upgra        ading: Sulltan Kuda     arat, Maguindanao (c        cost:
   $247,044). This road projec  ct upgraded a 5.4-kilome   eter dirt roadd serving thhree rural farrming
   comm munities in northern Ma aguindanao. The projecct was unde      ertaken at th he request of the
   U.S. Embassy, responding to an earlierr request byy a senior Moro Islamicc Liberation Front
   (MILF F) command  der, to dem
                               monstrate the   e U.S. Govvernment’s willingness to work with       h the
   MILF F toward a peeaceful reso
                                olution. The project was intended to provide the     e residents, many
   of whhom were co  onsidered MILF supportters or symp    pathizers, wiith better acccess to the main
   highwway and the e markets inn a nearby town along this highway. Although          h the cost of the
   project was well above the $50,000 thre    eshold, its im
                                                           mpact appea   ared to be limited given n that
   the number of recorded bene   eficiaries (2,,000) was coomparable to  o that of a tyypical BIP. Also,
   interv
        views with residents rev vealed that many farme    ers, particula
                                                                        arly those living in the more
   heavily populated d area near the end of th he road, conntinued to usse an alternaative accesss road
        ansport their goods to ma
   to tra                        arket becaus  se the altern
                                                           nate road pro ovided a sho orter, more direct
   routee to the neare
                     est town.



                                                                                                      8
    Whilee driving along the lengtth of the new wly upgraded   d road, the audit team observed tha  at the
    road was already   y developing g ruts (pictu
                                                ured below) and showed     d other signns of acceleerated
    deterrioration in some sections even tho    ough it had been comp     pleted only 2 months ea   arlier.
    According to a GEM constru    uction engine  eer, illegal l oggers usin
                                                                          ng large truccks to haul heavy
    loads
        s of lumber frequently travel along     g the road tto bypass th   he checkpoiints on the main
        way; this ille
    highw             egal use dam maged the road. Furthe     er damage was caused     d by some of the
    local farmers using heavily laden buffalo    o-drawn carrts with narro ow metal wheels that create
    additional ruts. The enginee    er also pointed out thatt during con  nstruction hee observed some
    residents stealing g gravel forr their own residences, thereby red    ducing the quantity of gravel
    availa
         able for the road and possibly acc     counting for some of the   e extremelyy muddy secctions
    observed during the audit tea  am’s inspecttion.




    Deep ruts are visiible on the newly upgrad
                                             ded Ladia-Raaguisi-Pinarin
                                                                      ng Road only
                                                                                 y 2 months after
    its co
         ompletion in May 2011. (Photo by OIIG, July 24, 2 011)


The selection of rela atively small--scale projec
                                                cts such as t hese four RIPs was larrgely attributted to
funding constraints and efforts to meet the performance      e target with
                                                                         h the availab ble funds. Since
its incepttion, the prog
                       gram’s annuual incremen  ntal funding h as been lesss than origiinally anticip
                                                                                                    pated,
reducing the amount of funds available for planned inffrastructure projects. At the time of the
audit, the
         e mission an  nd implementer were negotiating a modificatio     on to the contract that would
formally reduce the authorized fu  unding level from approxximately $12  26 million to $98.9 million.




                                                                                                         9
Available funding for infrastructure projects was further reduced because of the program’s
higher-than-expected support costs.3 To illustrate, a financial analysis of expenditures under
the program’s infrastructure component revealed that its support costs―originally expected to
represent 18 percent of the component’s total costs―are projected to be nearly twice the
amount planned. This increase in support costs, in turn, reduced the amount available and
allocated for the program’s RIPs by roughly $10 million.

By including in its RIP portfolio projects like the ones cited, the program may meet its revised
performance target of 12 RIPs but will end up with a set of projects whose collective impact will
be far less than what was originally envisioned. The reduction in available funding for the RIPs
not only caused them to be smaller but also diminished their sustainability. Six of the 12 RIPs
included in the program’s portfolio involve road-upgrading projects. However, only one of the
six involved the construction of an all-concrete road; the other five road projects, covering a total
of approximately 41 kilometers, will be primarily gravel (87.4 percent gravel, 12.6 percent
concrete). These roads will be cheaper to construct, but will require greater maintenance and
deteriorate faster than concrete roads.

With a reduced target of only 12 RIPs―far fewer than were completed under GEM-2 (40) and
less than what was originally anticipated under this program (15 to 20)―it is critical that the
projects selected for construction meet required criteria so that the program can achieve the
maximum impact from the few RIPs that are completed. It is also important that this selection
process not be compromised merely to meet planned targets.

Because all 12 of the program’s RIPs have already been initiated, this audit makes no
recommendation on the criteria issue, but suggests that the USAID mission take steps to ensure
that proposals initiated under any future programs involving infrastructure activities meet all
applicable criteria.

Regarding the deterioration observed on the Ladia-Raguisi-Pinaring Road, this audit makes the
following recommendation.

    Recommendation 1. We recommend that USAID/Philippines require the implementer
    for the Growth with Equity in Mindanao Program to assess the Ladia-Raguisi-Pinaring
    Road, coordinate the appropriate repairs and maintenance needed, and explore options
    to protect the road from further destructive usage.


Barangay-Level Infrastructure
Projects behind Schedule
BIPs are small-scale infrastructure projects that generally have construction costs of between
$5,000 and $50,000. They include solar grain dryers, boat landings, footbridges, roads, box
culverts, trading centers, drainage canals, and water systems. Under the prime contract, the
implementer was expected to construct 1,000 BIPs, mostly in the ARMM and other conflict-
affected areas, by the end of the program. This target was later reduced to “at least 760” BIPs4

3
   Support costs include (1) salaries for GEM staff, (2) overhead and fringe benefits, (3) travel, per diem, and 

allowances, and (4) other direct costs. 

4
   At the time of the audit in July 2011, this revised target was being used for operational purposes and was expected

to be approved under a contract modification that the mission was negotiating. 





                                                                                                                   10
following the reduction in the program’s authorized funding level from approximately $126
million to $98.9 million.

Since the program’s start in 2008, it has experienced chronic delays in the completion of many
of its BIPs, which has prevented the implementer from being able to meet its annual targets.
Table 2 shows that the gap has become wider each year.

           Table 2. BIP Annual Completion Rate - Target vs. Actual (unaudited)
                  Fiscal          Annual           Actual BIPs
                                                                        Shortfall
                   Year           Target           Completed
                   2008              50                  10                  (40)
                   2009             281                 188                  (93)
                   2010             479                 317                 (162)
                   2011             664                413*                 (251)

               * Number of BIPs completed through June 30, 2011.

Although the length of the construction delays has varied, a large percentage of the construction
projects were found to have been delayed in excess of 60 days. Table 3 shows that 175 of the
397 BIPs completed (44 percent) as of May 31, 2011, were completed in excess of 60 days
beyond the original completion date. Thirty-eight of these BIPs were delayed over 6 months.

                   Table 3. Construction Delays on 397 Completed BIPs
                              as of May 31, 2011 (unaudited)
                                                    Number
                           Length of Delay	                            %
                                                    of BIPs
                     No delays or early                 39            10%
                     Less than 30 days                 103            26%
                     30 to 60 days                      80            20%
                     60 to 90 days                      62            16%
                     More than 90 days                113*            28%

                   * Includes 38 BIPs (10 percent) delayed more than 6 months.

The underlying reasons for the delays vary, but the primary causes according to GEM staff have
been (1) bad weather (e.g., work stoppage due to heavy rainfall), (2) delays in the provision of
agreed-upon counterpart contributions (construction materials such as gravel and embankment
materials) by Local Government Units, and (3) deficient subcontractor performance (e.g., use of
poorly maintained equipment, inadequate supervision).

Other factors contributing to the construction delays, as well as delays or curtailment in starting
new construction projects in certain areas, include the following.

•	 Security Issues. Security has hampered construction efforts in certain areas and has
   reduced the number of prospective construction firms willing to bid on projects in those
   areas. The former GEM chief of party cited the following concerns:

   −	 The full-scale conflict between the Philippine armed forces and the MILF in 2008 and
      2009 caused significant damage in many towns, heightened security risks, and directly
      hampered travel and implementation plans. Also, with government funds in the affected


                                                                                                11
       municipalities often used for reconstruction, in the aftermath of this war, there were little
       or no funds left to cover the counterpart requirement on GEM infrastructure projects.

   −	 The Maguindanao Massacre (of more than 50 political personalities, residents, and
      journalists) in 2009 had far-reaching implications. The massacre led to the imposition of
      martial law and emergency rule, which halted GEM operations and implementation in
      most of Maguindanao Province and neighboring municipalities for an extended period.

   −	 Extortion attempts by both MILF and the New People’s Army on GEM contractors took
      significant time to resolve.

•	 Elections. The May 2010 elections and related political campaign expenditures led to a
   shortage of counterpart funds and difficulty in getting contractors to bid on GEM projects
   since other public contracts, awarded by municipalities and the Philippine Government, were
   more lucrative and required little oversight. Following the elections, there were often no
   municipal or provincial funds left for the new elected officials, leading to a lack of funds
   available for a local government counterpart.

Delays caused by these factors slowed the pace of construction, but generally did not increase
the subcontract price. Data generated by the GEM central database showed that of the 397
BIPs completed as of May 31, 2011, only 33 (8 percent) required a variation order to raise the
subcontract price, and the average increase was only about 4 percent.

Nevertheless, the delays have placed the program in the difficult position of having to accelerate
construction significantly during its final 18 months in order to meet the revised target of at least
760 BIPs. As of June 30, 2011, the program had completed 413 of the 760 BIPs, leaving a
balance of at least 347 BIPs still to be completed. With an average completion rate of about 11
BIPs per month since the start of FY 2011, we estimated that the pace of completion would
need to more than double in order to complete the remaining BIPs in time while also allowing
time for program phasedown before the program’s end date (December 31, 2012).

If the completion rate does not increase substantially, there is an increased risk of ending up
with a large number of unfinished projects at the end of the program. Ideally, one would expect
the number of ongoing projects to taper off midway into the program’s final year, allowing the
program to wind down in an orderly fashion. However, this appears unlikely. Members of
GEM’s infrastructure team acknowledged that they expect to have a number of projects ongoing
during the summer of 2012.

However, GEM officials stated that they were confident that they could complete the remaining
BIPs and achieve the revised target (at least 760 BIPs) by the end of the program. This
assessment was based in part on the status of efforts to get the remaining projects through the
procurement process and into the construction phase as well as on the length of time it has
taken to complete each project. As of June 30, 2011, the program had acquired the necessary
clearances to carry out 768 BIPs, of which 413 had been completed and 234 were under way.
Other projects were at various stages in the procurement process.

Even if the program manages to complete the remaining BIPs before it ends, undertaking such
a large volume of BIPs over a relatively short period increases the risk that the quality of work
may be compromised during the construction process. GEM infrastructure staff acknowledged
that subcontractor performance is often affected when the subcontractors operate beyond their
capacity and are involved in too many subcontracts.


                                                                                                  12
With the program’s wave of new construction start-ups, onsite monitoring and inspections
become particularly critical. From interviews with GEM construction engineers, however, the
audit team learned that these engineers were often assigned to monitor and inspect as many as
five BIPs at a time. The mission’s infrastructure engineer stated that this number is far too
many to be able to monitor activities effectively at each site. He explained that the GEM
construction engineers need to be at the site when certain key tasks are being performed (e.g.,
pouring of the concrete) to ensure that this work is done properly. This becomes increasingly
difficult when one is monitoring four to five construction sites concurrently. Although GEM
earlier hired 20 additional construction engineers to address this staff shortage, construction
engineers are still responsible for multiple projects as a result of the ramping up of new
construction, which includes road-upgrading projects that require a construction engineer to be
permanently onsite and dedicated to only one project.

In addition to the monitoring provided by the GEM construction engineers, the mission’s
infrastructure engineer performs brief onsite inspections at the construction sites in different
regions. These visits, however, typically focus on ongoing projects, as opposed to completed
ones, in order to rectify any identified deficiencies while the project is still in progress.

To mitigate the risk of having a large number of completed projects that do not meet quality
standards (certified and accepted despite having apparent quality issues) and to protect
USAID’s investment in these infrastructure projects, the mission needs to take steps to increase
its oversight of this area. For example, the mission’s infrastructure engineer needs to expand
the scope of his inspections to include visits to all recently completed BIPs in each area visited.
He must ensure that these projects are of acceptable quality and that any deficiencies identified
are addressed within the subcontractor’s 1-year warranty period. The mission’s internal
reporting procedures also need to be reviewed to ensure that deficiencies identified by the
mission’s engineer are reported to the implementer in a timely manner so that corrective action
can be taken. Consequently, the audit makes the following recommendation.

   Recommendation 2. We recommend that USAID/Philippines develop a plan of action
   outlining the measures the mission intends to take to ensure that quality standards are
   maintained on the remaining Barangay-Level Infrastructure Projects to be completed
   under the mission’s Growth with Equity in Mindanao Program.


Implementer Double Counted
Assistance to Former Combatants
To help ensure that former MNLF combatants continue to be able to make a reasonable living
for themselves and their families so that they may become productive members of society, the
contract required the implementer to identify 50 cooperatives or communities of former
combatants and provide each with postharvest facilities needed to make their agricultural efforts
more productive and profitable. As of May 31, 2011, the program had provided (or facilitated
the construction of) 44 postharvest facilities, with 1 additional facility under construction and 5
others in the design phase.

However, the audit noted that 15 of the 44 completed postharvest facilities were also classified
as BIPs because they were built under the supervision and management of GEM’s BIP
infrastructure team. These outputs were therefore double counted and credited against two
separate performance targets, one for the postharvest facilities and the other for the BIPs.



                                                                                                13
Accounting records showed that the cost associated with the construction of the 15 facilities
($307,561) had been allocated not to the infrastructure component but to the program
component covering assistance to the former combatants. Consequently, the postharvest
facilities should have been counted against the performance target for the latter activity only and
not credited as completed infrastructure projects as well.

After raising this issue with GEM program staff, one infrastructure section official stated that it
had never occurred to him that the postharvest facilities could be double counted as BIPs.
Another staff member, assigned to the former combatant reintegration activity, disagreed with
the assertion that there was any double counting. He claimed that the support provided to the
former combatants by his staff, in the form of technical training on the use and maintenance of
the postharvest facilities, should count as an output to be credited against the postharvest
facility target. The problem with this assertion is that the contract calls for the implementer to
provide postharvest facilities and not merely training or technical assistance.

In reviewing the language contained in the contract, it is clear that the construction of the BIPs
and the postharvest facilities were to be funded from different sources and counted separately.
Crediting the construction of the postharvest facilities against two separate performance targets
(i.e., double counting) reduces the program’s total outputs. To address this issue, this audit
makes the following recommendation.

   Recommendation 3. We recommend that USAID/Philippines require the implementer
   for the Growth with Equity in Mindanao Program to make and document appropriate
   adjustments to its performance results data to ensure that the postharvest facilities
   provided under the program to former combatants are credited toward the target for this
   activity only, to avoid double counting.


Aquaculture Producers
Hindered by Supply Problems
Under the Sustainable Aquaculture and Fisheries Effort (SAFE), GEM provides assistance to
Mindanao fisheries and aquaculture sectors to help them achieve sustainability and increase the
production of selected high-value species (e.g., grouper and abalone), with the target of tripling
exports and domestic shipments of these aquatic products. Among the beneficiaries that GEM
works with under this activity are former MNLF combatants, whom the program assists as part
of ongoing reintegration efforts by helping them produce and sell high-value aquaculture
products in order to increase their incomes.

Unfortunately, not all former combatants participating in this activity were benefiting and
achieving the sustainable increase in income that was intended. One example included an
aquaculture cooperative located on the island of Basilan that was experiencing supply
problems. The cooperative, established in 2008, had 35 active members―mostly former
combatants―who were previously engaged in the buying and selling of various aquamarine
products (lobster) before receiving assistance under GEM-3. In September 2008, GEM-3
provided the members with technical assistance and training to teach them how to raise
groupers and abalone and later provided them with fingerlings to help them get started. The
cooperative, located along the island’s shoreline, had eight large fish cages beside its dock,
each capable of holding a maximum of 500 fish or a total of 4,000 fish.




                                                                                                14
At the tim
         me of the auudit team’s visit, these cages (show  wn below) were virtuallyy empty sincce the
cooperattive was stilll waiting for additional fingerlings (ggrouper) orddered from the fish hatcchery
located in
         n Tawi-Tawii to replenish h the previous stock tha at was harveested and soold. Accordiing to
the coopperative chairman, the la atest order of fingerlingss was delaye ed several months, whicch he
claimed was often the case with orders. He pointed out that in          n addition to
                                                                                    o the delayss, the
quantity received froom the hatch hery is generally less thaan what the cooperative e needs andd only
enough to allow it too operate at about 25 pe  ercent of capacity. He stated that he knew of other
cooperattives in the area that werre experienc cing similar s upply problems.




At the Baasilan Aquammarine Produ ucts Cooperaative on Basiilan Island, fish cages ha ad been sittin
                                                                                                   ng
empty for months wh  hile waiting to
                                   o be restock
                                              ked with addiitional fingerrlings that we
                                                                                      ere on orderr from
the fish hatchery. (Ph
                     hotos by OIGG, July 16, 2011)

GEM sta aff acknowled
                    dged that the limited suppply of finge
                                                         erlings produuced by the hatchery in Tawi-
Tawi hadd been a chrronic problem. One sta aff member e xplained that the hatch  hery was thee only
one in the region, and it had been experiencing tecchnical prob       blems that were limitingg the
quantity of grouper fingerlings it could produce.
                                            r           Sp
                                                         pecifically, th
                                                                       he hatcheryy was reporrtedly
                               ate among itts fingerlingss and had difficulty ma
experiencing a high mortality ra                                                 aintaining en
                                                                                             nough
male groupers for maating purposses.

The GEM  M staff also agreed that there was a need for a s econd hatcchery in the region to add dress
the growing demand for fish (gro ouper) fingerrlings. One s taff membe er pointed ouut that even if the
Tawi-Taw wi hatchery manages to   o sort out its problems and is able  e to operatee at capacityy, the
aquaculture coopera  atives operatting on that island alonee could absoorb at least 80 percent of the
hatchery’s total fingeerling production, leavin
                                              ng a limited quantity off fingerlings available foor the
rest of th
         he region. Further disc cussion with the coopera   ative chairm
                                                                       man revealed d that the supply
issue ma ay not be co onfined to the Sulu Arc chipelago re egion alone;; he mention ned that annother
aquaculture coopera  ative operating in the prrovince of La anao del No orte had expperienced similar
problems s and is noww reportedly importing its
                                              s fingerlings from China.

Becausee of the dela ay in the repplenishment of its stock, the Basilan cooperativve had to ha   alt its
aquaculture operatio  ons temporrarily, pending the recceipt of add   ditional finge
                                                                                   erlings from m the
hatchery. In the interrim it has no
                                  ot been geneerating incom
                                                          me for its meembers. Th his delay hass also
extended
       d the period required to   o turn over each batch of harveste  ed fish, there
                                                                                   eby reducing the
number of harvests in a given ye  ear. The delay, coupled d with the co
                                                                      ooperative’s inability to obtain


                                                                                                     15
the quantity of fingerlings it desires, has prevented this and possibly other cooperatives from
operating at full capacity and being able to maximize their production and sales revenues.

Given the potential for growth in the aquaculture area, constraints such as this one need to be
addressed to reduce the delays in the replenishment of fish stocks. Specifically, GEM needs to
assess what improvements can be made to address the supply problem and provide a
sustainable long-term solution. This may include expanding the production capacity of the
existing hatchery or helping establish a second privately operated fish hatchery to supply
fingerlings for the region. To ensure that the benefits derived from SAFE are sustainable well
into the future, this problem needs to be addressed before the program ends. Therefore, this
audit makes the following recommendation.

   Recommendation 4. We recommend that USAID/Philippines require the implementer
   for the Growth with Equity in Mindanao Program to develop and implement a plan of
   action for the program’s Sustainable Aquaculture and Fisheries Effort to provide a
   sustainable, long-term solution that addresses the existing supply problem of fish
   hatcheries not being able to produce sufficient quantities of fingerlings to satisfy the
   demand generated by program-assisted aquaculture cooperatives.




                                                                                              16
EVALUATION OF MANAGEMENT
COMMENTS
OIG has reviewed the mission’s response to the draft report and determined that management
decisions have been reached on Recommendations 1 and 2, while final action has been taken
on Recommendations 3 and 4. Our evaluation of management comments follows.

In response to Recommendation 1, the mission agreed. At the request of the mission, the
GEM-3 program implementer assessed the condition of the Ladia-Raguisi-Pinaring Road by
performing sand cone, thickness, and other tests. Noting that the quality of the road showed a
marked decline, particularly the second half of the road, the implementer determined that the
field engineer on the project had erroneously recorded the volume of loose aggregates supplied
instead of the volume of compacted aggregate, and thereby overstated the volume of aggregate
materials used on the project. When the bill of quantities reflected that 100 percent of the
aggregate material was placed, the project appeared complete. Because of the miscalculation
of the volume of aggregate materials required, the implementer did not purchase and deliver
enough materials. The implementer will undertake the remaining work on the road through
direct administration and upon completion, the mission will participate in a final inspection of the
road. The mission estimates the partner will complete the repair work in December 2011.
Based on the proposed action, the mission reached a management decision.

In response to Recommendation 2, the mission agreed.                With the assistance of a
USAID/Regional Development Mission for Asia U.S. direct hire engineer, the mission will
develop a plan that outlines the measures it intends to take to ensure that quality standards are
maintained on the remaining BIPs.         The mission anticipates submitting the plan by
December 10, 2011. Based on the proposed action, the mission reached a management
decision.

In response to Recommendation 3, the mission agreed. At the request of the mission, the
GEM-3 program implementer made and documented adjustments to its performance results
data to ensure that the postharvest facilities are counted under the appropriate results indicator.
The GEM-3 program implementer removed the 15 postharvest facilities from the number of
postharvest facilities provided under the former combatant reintegration activity and left the
record under the BIPs. The adjustment did not change the reporting on BIPs and eliminated the
duplication in recording of output. The mission has taken final action on this recommendation.

In response to Recommendation 4, the mission agreed. At the request of the mission, the
GEM-3 program implementer has assessed SAFE and developed an action plan to increase
fingerling production. The implementer is working with the Tawi-Tawi hatchery operator to
increase larval stocking and survival rates of groupers by improving the rearing conditions such
as optimizing initial stocking and rearing densities, water quality and temperature, feed quality,
disease control, and multiple production cycles. The hatchery is on track to increase the
monthly production from 14,000 to 60,000 fingerlings by June 2012, which the mission contends
will satisfy the requirements of both the 40 aquaculture cooperatives as well as additional
growers. The mission has taken final action on this recommendation.




                                                                                                 17
                                                                                                Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.5
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objective. We believe that the evidence obtained provides that reasonable basis. The
purpose of this audit was to determine whether the GEM-3 Program was achieving its overall
objectives of developing needed infrastructure and promoting the expansion of economic
opportunity in the conflict-affected areas of Mindanao.

To implement the program, USAID/Philippines signed a cost-plus-fixed-fee contract valued at
approximately $126 million6 with the Louis Berger Group Inc., covering a 5-year period from
January 1, 2008, to December 31, 2012. As of August 31, 2011, cumulative obligations under
the program totaled approximately $83.1 million, and disbursements totaled $63.9 million.

The audit covered program activities from January 1, 2008, through August 31, 2011. The audit
involved (1) assessing the status of the program in achieving key deliverables under its four
main components by comparing actual results to date against the Life-of-Project performance
targets specified in the contract; (2) validating the reliability of the results data reported for
certain activities by checking selected data against supporting records; (3) performing various
analyses using data maintained in the implementer’s database on the program’s infrastructure
activities; and (4) conducting field visits to selected activity sites to inspect a variety of
completed infrastructure and non-infrastructure projects and interview local officials, residents,
and other beneficiaries to solicit their feedback on the activities.

In planning and performing the audit, the audit team identified and assessed relevant controls
used by the mission to manage the project and ensure that its implementer was providing
adequate oversight of program activities. Key controls included receiving monthly infrastructure
activity and expenditure reports and quarterly progress reports, holding quarterly meetings with
the GEM staff to obtain an update on the status of program activities, and monitoring ongoing
construction projects through site inspections performed by the mission’s construction engineer.

Additionally, the audit team examined the mission’s fiscal year 2010 annual self-assessment of
management controls, which the mission is required to perform to comply with the Federal
Managers’ Financial Integrity Act of 1982,7 to determine whether the assessment cited any
relevant weaknesses. Similarly, the audit team reviewed the findings contained in a report of a
prior USAID/OIG audit of the GEM-2 program8 to check for any issues pertinent to this audit.



5
  Government Auditing Standards, July 2007 Revision (GAO-07-731G) 

6
  At the time of the audit, the contractor and USAID/Philippines were negotiating a contract modification to

reduce the program’s authorized funding level from $125,972,977 to $98,868,135. 

7
  Public Law 97-255, as codified in 31 U.S.C. 3512.

8
  Audit of USAID/Philippines’ Growth with Equity in Mindanao (GEM-2) Program (Report No. 5-492-08­
008-P) dated July 31, 2008.


                                                                                                         18
                                                                                          Appendix I


Audit fieldwork was performed from May 23, 2011, to September 23, 2011, at the USAID
mission in Manila and at the implementer’s main program office in Davao City, Mindanao. Also,
three field trips were made to separate regions in Mindanao; during these trips, the auditors
conducted site visits to selected infrastructure and non-infrastructure activity sites to perform
onsite inspections and interview local officials, partners, and residents. Together, these field
trips covered 68 activity sites, including 46 infrastructure project sites, of which 6 related to RIPs
(50 percent of the total to be completed) and 40 related to BIPs (10 percent of the total
completed to date).

Methodology
To determine whether the program was achieving its overall objectives, the audit team initially
examined the program’s quarterly progress reports to assess the status of program activities
and the accomplishments and key deliverables achieved to date under these activities in the
context of the life-of-project performance targets specified in the contract. This assessment was
supplemented with information obtained through interviews with various mission and contractor
staff, including the mission’s contracting officer technical representative and the implementer’s
chief of party.       Correspondence and other supporting records, including evidence of
deliverables, were also examined to substantiate claims regarding GEM-3 activities.

Given the wide range of activities implemented under this umbrella program and the fact that
most (approximately 67 percent) of the total funding was allocated to the infrastructure
component, additional work to answer the audit objective focused on two areas: (1) assessing
the reliability of reported results data for certain non-infrastructure activities by checking
selected data against supporting records and (2) performing a series of analyses on the
program’s infrastructure activities using programmatic data maintained in the implementer’s
central database and financial data furnished by the implementer’s accounting department.

In validating the reliability of the reported results data, the auditors focused primarily on the non-
infrastructure activities relating to the Business Growth and Workforce Preparation components.
For each activity tested, the audit team selected a judgmental sample of reported results data
and checked the data against supporting records to verify that the reported data was accurate.
To assess the test results, the audit team established a materiality threshold of 10 percent. For
example, if the total deficiencies identified during the testing of the reported results data for a
particular activity involved at least 10 percent of the tested data, the auditors concluded that the
reported data for the activity was not accurate or adequately supported. Because testing was
based on judgmental samples, results and overall conclusions were limited to the items tested
and could not be projected to the entire audit universe.

Auditors’ review of the program’s infrastructure activities included (1) assessing the extent of
coverage provided by the BIPs, (2) analyzing patterns or trends in the distribution of the BIPs,
(3) ascertaining the extent, impact, and causes of construction delays, (4) validating assertions
concerning the limited number of bidders in certain geographic regions, (5) verifying that post-
construction monitoring visits by the program’s Beneficial Use Monitoring teams were conducted
within the prescribed time frame, and (6) determining whether onsite inspections were regularly
performed and properly documented in the daily site log. Data on infrastructure projects was
also substantiated through physical inspection during site visits to selected project sites. During
these visits, auditors interviewed implementer and subcontractor staff concerning problems, if
any, during construction and spoke to barangay officials and residents to solicit their feedback
on the completed infrastructure projects.
                                                                                                   19
                                                                                         Appen
                                                                                             ndix II



MA
 ANAG
    GEMENT
         T COM
             MME
               ENTS
                  S



    RANDUM

MEMOR

TO            :       Bruce Boyer, Region
                                        nal Inspecto
                                                   or General

FROM          :       Reed Aes
                             schliman, Acting
                                       A      Missiion Directorr /s/

SUBJEC
     CT       :       Audit of USAID/Phili
                               U          ppines’ Gro         Equity in Mindanao 3
                                                    owth with E
                      (GEM-3) Program

USAID/PPhilippines wishes to thank
                             t     the Regional Insspector Gen neral (RIG)) for the
professional and co
                  onstructive manner in which the aaudit was cconducted. The Missio on
agrees that
       t    the imp         on of the audit recomm
                  plementatio                    mendations will help im mprove the
various aspects of the GEM-33 Program.

The actions taken and
                  a further actions planned by th
                                                he Mission tto address the audit
recomm
     mendations are
                  a as follo
                           ows:

Recomm mendation n #1: We reecommend   d that USAID/Philippiines requirre the
implementer of thhe GEM-3 Program
                           P          to
                                       o assess th
                                                 he Ladia-R
                                                          Raguisi-Pinnaring road
                                                                               d,
coordinnate the ap
                 ppropriate repairs
                             r       andd maintena
                                                 ance needded, and exxplore options
to prote
       ect the road
                  d from furtther destru
                                       uctive usag
                                                 ge.

       Mission
       M          Response: USAID
                               U        conc curs with th
                                                        he recomme   endation. A  At the reque est
       of USAID, thhe GEM-3 Program
                                P          im
                                            mplementer assessed tthe conditio     on of the La adia­
       Raguisi-Pina
       R            aring Road. The GEM     M Program D  Design Eng  gineer perfo ormed sand   d
       cone, thickness, and otther tests, anda noted tthat the qua   ality of the rroad showe  ed a
       marked
       m        declline particularly for the
                                            e second ha alf of the road. Concu     urrent to the
                                                                                               e
       field review, GEM Prog  gram staff re eviewed the e project doocumentation and reports
       and conclud ded the follo
                               owing:

       1) Scope off Work Com  mpleted Bassed on the Bill of Quanntities: The
                                                                           e project wa
                                                                                      as
          constructed with a shortage off 1,025 cubiic meters of aggregate e wearing
          course materials du ue to record
                                         ded measurrements ba ased on loosse volume
          instead of placed voolume. When aggrega   ate materia
                                                              al is placed and compa  acted
          on a roadd, the volum
                              me shrinks. In generaal, one cubicc meter of loose material
          is equiva
                  alent to appproximately 0.70 cubic meters of placed, com mpacted
          material. The field engineer errroneously recorded volume of lo  oose
          aggregattes instead of placed, compacted  d aggregatees, and thuss over-creddited


                                                                                                  20
                                                                            Appendix II


   the volume of aggregate materials used on the project. The field engineer
   recorded all aggregate materials in the Bill of Quantities (BOQ) but
   erroneously recorded loose volumes for a portion of the aggregate surface
   course instead of placed volumes. When the BOQ reflected that 100% of the
   aggregate material was placed, the project appeared complete. Due to the
   miscalculation of the volume of aggregate materials required, the GEM-3
   Program implementer did not purchase and deliver enough materials and did
   not charge USAID for them.

2) Fast deterioration of the road due to other significant factors: The GEM-3
   Program implementer received multiple reports that nearby residents were
   “harvesting” the surface course materials for their private use. Furthermore,
   there have been reports of heavily-loaded, illegal logging trucks using the
   road during the evenings and early mornings. Local residents have also
   placed filling materials on the left side ditch at Station 1+000 for use as a
   basketball court, causing drainage to pond in the roadway. All these factors
   have increased the damage to the project which was implemented as a low-
   traffic, aggregate-surfaced gravel road.

USAID concurs with the following actions proposed by the GEM-3 Program
implementer:

1) Adjustment in the sub-contract price: The error (loose vs. compacted volume)
   amounts to an overpayment of Php98,513 (US$2,300) and will be recouped
   from the sub-contractor’s final billings.

2) Complete and deliver the volume required: Initially, all aggregate surfacing
   material was a counterpart contribution valued at Php4.0 million. In total,
   Php1.6 million worth of aggregate materials was provided by the counterpart
   and Php1.25 million was provided by USAID, leaving Php1.15 million worth of
   aggregate material unfunded due to the inability of the counterpart
   organization to provide the remaining contribution. The estimated cost to
   complete the work is estimated at Php1.18 million (after recoupment) based
   on material costs (Php0.96 million) and equipment (Php0.32 million). The
   difference in costs (Php1.15 million vs. Php1.18 million) can be attributed to
   variations in material prices as well as remobilization costs. USAID will cover
   the costs of the remaining work. The GEM-3 Program implementer will
   undertake the remaining work through direct administration. The repair work
   will be completed in December 2011. Upon completion, the GEM-3 Program
   implementer will conduct a final inspection with the USAID/Philippines
   engineer and project stakeholders and provide an updated report to USAID
   15 days after the final inspection. USAID/Philippines engineer will make a
   final determination on the quality of the repair work based on the final
   inspection report. USAID/Philippines proposes to close this recommendation
   if the quality of the repair work is satisfactory. If the quality of the repair work
   is not satisfactory, USAID will require the GEM-3 Program implementer to

                                                                                     21
                                                                             Appendix II


         cover the cost of additional repair work needed to achieve the acceptable
         quality.

      Based on the actions identified above, USAID requests RIG/Manila concurrence
      that a management decision has been reached.


Recommendation #2: We recommend that USAID/Philippines develop a plan of
action which outlines the measures that mission intends to take to ensure the
quality standards are maintained on the remaining Barangay-level Infrastructure
Projects (BIPs) to be completed under the Mission’s GEM-3 Program.

      Mission Response: USAID concurs with the recommendation. USAID will
      develop a plan of action that outlines the measures that Mission intends to take
      to ensure the quality standards are maintained on the remaining BIPs to be
      completed. USAID will tap the services of USDH construction engineer from
      USAID/RDMA to provide technical advice and help develop the plan of action.
      USAID will submit the action plan 30 days from the date of this memorandum to
      comply with the recommendation.

      Based on the actions identified above, USAID requests RIG/Manila concurrence
      that a management decision has been reached.

Recommendation #3: We recommend that USAID/Philippines require the
implementer of the GEM-3 Program to make and document appropriate
adjustments to its performance results data to ensure that the post-harvest
facilities provided under the program to former combatants are credited properly
toward the target for this activity to avoid double counting.

      Mission Response: USAID concurs with the recommendation. At the request
      of USAID, the GEM-3 Program implementer made and documented adjustments
      to its performance results data to ensure that the post-harvest facilities are
      counted under the appropriate results indicator. The GEM-3 Program
      implementer removed the fifteen (15) post-harvest facilities from the number of
      post-harvest facilities provided under the Former Combatant Reintegration (FCR)
      and left the record under the barangay infrastructure projects (BIPs). The
      adjustment did not change the reporting on BIPs and eliminated the duplication in
      recording of output. The GEM-3 Program quarterly report for April-June 2011
      reflected the reduction of 15 FCR projects. (See Attachment A for the
      documentation of the adjustments made on the indicators.)

      Based on the actions taken, the Mission requests RIG/Manila’s concurrence that
      this recommendation has been addressed, and that this audit recommendation
      be closed.



                                                                                     22
                                                                                 Appendix II


Recommendation #4: We recommend that USAID/Philippines require the
implementer of the GEM-3 Program to develop and implement a plan of action for
the program’s Sustainable Aquaculture and Fisheries Effort (SAFE) activity to
provide a sustainable, long-term solution that addresses the existing supply
problem of fish hatcheries not being able to produce sufficient quantities of
fingerlings to satisfy the demand generated by program-assisted aquaculture
cooperatives.

      Mission Response: USAID concurs with the recommendation. At the request
      of USAID, the GEM-3 Program implementer has assessed the Sustainable
      Aquaculture and Fisheries Effort (SAFE) activity. USAID concurs with the
      actions proposed by the GEM-3 Program implementer to provide a sustainable
      and long-term solution that addresses the existing supply problem of fish
      hatcheries.

      The GEM-3 Program implementer recognizes the need to ensure a sustainable
      long-term supply of grouper fingerlings to service the needs of forty (40)
      aquaculture grow-out cooperatives. These cooperatives require approximately
      15,000 fingerlings monthly. The GEM-3 Program implementer addresses this
      need at two stages in the production process: a) hatcheries that produce
      grouper fry; and b) nurseries that receive the fry from the hatcheries and rear
      them to fingerlings of a size that can be provided to grow-out cooperatives. The
      GEM-3 Program implementer is taking the following actions.


      For the existing facility in Tawi-Tawi, which is both a hatchery and nursery, the
      GEM-3 Program implementer is working with the hatchery operator to increase
      larval stocking and survival rates of groupers in accordance with the
      recommendations of a consultant who studied the problem. The hatchery
      operator is currently improving the rearing conditions that involve optimizing initial
      stocking and rearing densities, water quality and temperature conditions, feed
      quality and regimes, disease control, and multiple production cycles. The
      hatchery currently produces 14,000 3-cm fingerlings every month. The Tawi-
      Tawi facility is on track in increasing the monthly production from 14,000 to
      60,000 fingerlings by June 2012, which will satisfy the requirements of both the
      forty (40) aquaculture grow-out cooperatives as well as additional growers. The
      Tawi-Tawi facility is also targeting production of additional 60,000 grouper fry to
      supply other nurseries located in Kabasalan, Zamboanga Sibugay and Sibutu,
      Tawi-Tawi.

      USAID will closely monitor the progress of the actions being implemented by the
      GEM-3 Program implementer.

      Based on the actions taken, the Mission requests RIG/Manila’s concurrence that
      this recommendation has been addressed, and that this audit recommendation
      be closed.

                                                                                         23
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
